App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JEANINE LIBERTI; MICHAEL No. 18-16938
LIBERTI, individually and as
D.C. No. 2:17-cvsurviving parents of Dylan
02813-DLR
Liberti, decedent,
MEMORANDUM*
Plaintiffs-Appellants,
(Filed Jun 5, 2020)
v.
CITY OF SCOTTSDALE, et al.,
Defendants-Appellees,
and
DOES, named as John and/or
Jane Does I through V, fictitious
individuals; ABC Corporations
and/or Partnerships and/or Sole
Proprietorships and/or Joint
Ventures I-X, fictitious entities,
Defendant.
Appeal from the United States District Court
for the District of Arizona; Douglas L. Rayes,
District Judge, Presiding
Argued and Submitted March 5, 2020
Phoenix, Arizona

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Before: HAWKINS, OWENS, and BENNETT, Circuit
Judges.
Plaintiffs Jeanine Liberti and Michael Liberti appeal from the district court’s grant of summary judgment to Defendants. Plaintiffs’ claims arise out of the
interaction between Officer Wilmer Fernandez-Kafati,
Officer Marjorie Bailey, and Dylan Liberti (“Liberti”),
which tragically ended in the fatal shooting of Liberti.
The district court granted summary judgment on
Plaintiffs’ 42 U.S.C. § 1983 claim based on qualified immunity, and granted summary judgment on Plaintiffs’
negligence and wrongful death claims after finding
Plaintiffs’ counsel had conceded that the state law
counts rose or fell with their § 1983 claim.1 We have
jurisdiction under 28 U.S.C. § 1291, and we affirm.
1. The district court correctly found that qualified immunity barred Plaintiffs’ claim that the officers
violated Liberti’s Fourth Amendment rights by using
excessive and deadly force against him. Qualified immunity’s availability depends upon (1) whether the
facts “taken in the light most favorable to the party asserting the injury show[s] that the officers’ conduct violated a constitutional right and (2) [whether] the
right was clearly established at the time of the alleged
violation.” Thompson v. Rahr, 885 F.3d 582, 586 (9th
Cir. 2018) (internal quotation marks and alterations

1

The district court overread counsel’s “concession.” However, we nonetheless affirm the district court’s grant of summary
judgment on the state law claims for the reasons stated below.

App. 3
omitted) (quoting Saucier v. Katz, 533 U.S. 194, 201
(2001)). We need only address the second prong.
Even if we agree that the officers violated one of
Liberti’s constitutional rights, Supreme Court precedent prevents us from considering it a “clearly established right.” An officer “cannot be said to have violated
a clearly established right unless the right’s contours
were sufficiently definite that any reasonable [officer]
in the defendant’s shoes would have understood that
he was violating it.” Kisela v. Hughes, 138 S. Ct. 1148,
1153 (2018) (internal quotation marks and citation
omitted). The Supreme Court has explicitly warned
against defining “clearly established law at a high level
of generality.” Id. at 1152 (internal quotation marks
and citations omitted).
No existing precedent would have given the officers notice that Officer Bailey’s grabbing of Liberti’s elbow in an attempt to get him to sit down or that the
officers’ additional attempts to subdue him when he
fled were unconstitutional. These uses of force fall “far
from an obvious case in which any competent officer
would have known [their uses of force] . . . would violate the Fourth Amendment.” Id. at 1153. Likewise,
there is no case that would establish that Officer
Fernandez-Kafati’s use of deadly force was obviously
unconstitutional where: (1) Liberti had already fled
from the officers and was not complying with their orders; (2) Liberti had a knife in his hand; (3) Officer Bailey’s prior use of a Taser to subdue Liberti had proven
ineffective; (4) Liberti was moving toward either Officer Fernandez-Kafati or the shopping center with a

App. 4
knife in hand; and (5) Officer Fernandez-Kafati was
the only officer standing between Liberti and the rest
of the open-air shopping center where members of the
public were present. This keeps us from finding that
the officers had “fair and clear warning” that their actions were unconstitutional. Id. (citation omitted).
2. We are similarly constrained by Arizona law
with respect to Plaintiffs’ state law claims based on officer negligence. In Arizona, plaintiffs cannot base a
negligence claim on an intentional use of force nor on
a law enforcement officer’s negligent “ ‘evaluation’ of
whether to intentionally use force.” Ryan v. Napier, 425
P.3d 230, 236 (Ariz. 2018). Any negligence claim must
be based on conduct independent of the intentional use
of force. Id. at 238.
3. Plaintiffs’ remaining claims fail as there are
no wrongful acts for which the officers can be liable. No
reasonable juror could find that the initial use of force
was wrongful, given the information known to the officers. They were responding to a hang-up 911 call;
they had been told that the man making the call did
not look well; and a bystander had flagged down Officer
Fernandez-Kafati to point out Liberti. In addition,
when they wanted to reasonably limit Liberti’s movements while they were talking to him, giving Liberti
many verbal commands and requests to sit down,
Liberti refused. The officers were faced with a difficult
situation: they did not know exactly why Liberti was
behaving the way he was but wanted to continue the
conversation while maintaining control and limiting
Liberti’s options to escalate the situation. Their actions

App. 5
were modest and tailored to the situation, and no reasonable juror could have found them wrongful. When
Liberti subsequently attempted to run away, no reasonable juror could find that the officers’ increased use
of force to attempt to subdue him was wrongful. Furthermore, once Liberti had his knife in hand, he clearly
posed a danger to himself and others. No reasonable
juror could find that the officers’ escalating attempts
to subdue him, up to and including Officer FernandezKafati’s use of deadly force, constituted wrongful acts.
AFFIRMED.

BENNETT, Circuit Judge, concurring in part and dissenting in part:
Dylan Liberti died tragically on a hot summer Arizona day in July 2016, shot by police officers in a
Scottsdale shopping mall. Dylan was just twenty-four
when he died. Many of the salient events of that tragic
day are captured on police video. Police officers approached Dylan, primarily because he had made a
hang-up 911 call from a nearby restaurant and a
passer-by thought Dylan was acting erratic and
“looked weird.” The restaurant manager gave no indication that Dylan posed any danger and neither did
the passer-by. Though it likely exceeded 100 degrees at
the time the police approached Dylan, they were intent
and insistent on physically forcing Dylan to sit down
on hot concrete. The video demonstrates that Dylan
answered their questions cogently and lucidly, though

App. 6
because of their errors in processing what Dylan said,
they may have believed Dylan was not being as cooperative as the video shows him to be. Dylan became obviously agitated (but still not threatening) as they
became more and more insistent that he sit down. One
officer then physically grabbed Dylan’s arm to force
him to the ground. The tragic aftermath is accurately
described by the majority.
Dylan’s parents, the Plaintiffs, brought this case.
Though I agree with the majority that the Defendants
are entitled to summary judgment on Plaintiffs’ federal claims and state law negligence claims, I respectfully dissent from the majority’s affirmance of the
district court’s grant of summary judgment on Plaintiffs’ wrongful death claims. I believe the evidence,
when viewed in the light most favorable to Plaintiffs,
would allow a reasonable jury to find that the officers
committed a battery and false arrest, both wrongful
acts under Arizona’s wrongful death statute, and that
either or both proximately caused Dylan’s death. I
would therefore reverse the district court’s grant of
summary judgment on the wrongful death claims and
remand those claims for further proceedings.1
Arizona’s wrongful death statute provides that
“when the death of a person is caused by wrongful act,
neglect or default, [the actor] who would have been liable if death had not ensued shall be liable to an action
1

I would not simply remand for trial, as I believe Defendants
should be given the opportunity to try to show that Plaintiffs’
wrongful death claims are barred, as a matter of law, by state law
defenses, such as state law qualified immunity.

App. 7
for damages.” Walsh v. Advanced Cardiac Specialists
Chartered, 273 P.3d 645, 648 (Ariz. 2012) (internal alterations omitted) (quoting A.R.S. § 12-611).
The events that eventually led to Dylan’s death
started out as a welfare check in response to a hangup 911 call. Officers Fernandez-Kafati and Bailey
knew that a male who had used a phone in a restaurant to make the call had subsequently left the restaurant without incident. The officers were told that the
male did not look well, but there was no report that he
posed a danger to anyone, or even that he looked like
he might pose a danger to anyone. Officer FernandezKafati was directed toward Dylan by a shopper who
thought that Dylan “looked weird” and “didn’t look
right.” Officer Bailey arrived shortly thereafter with
her on-body camera actively recording. The on-body
camera video shows that the officers spoke to Dylan in
front of a grocery store, asking him for identifying information and whether he wanted them to call paramedics because he did not look well. Dylan answers the
officers’ questions cogently and accurately but declines
additional assistance. For example, Dylan accurately
provided the officers his name, date of birth, and home
address. Dylan does not appear irrational, dangerous,
in obvious need of assistance, or obviously intoxicated.2
2

The district court’s conclusions that Dylan’s failure to follow the officers’ directions constituted an ignoring of “questions
and commands,” appears to disregard that Dylan answered the
officers’ questions regarding his identifying information and clarified when asked to do so. Though the video speaks for itself; to
the extent the video is ambiguous on these points, of course we
must construe the facts in the light most favorable to Plaintiffs.

App. 8
Dylan is not acting in a threatening manner—either to
the officers or anyone else. The officers are in possession of no evidence that Dylan committed a crime. The
officers repeatedly ask (and then demand) that Dylan
sit down. As Plaintiffs note, it was a hot day and the
concrete the officers wanted Dylan to sit on was possibly painfully hot. Historic records show that the temperature in Scottsdale was as high as 111 degrees the
day Dylan was shot.3 Dylan obviously does not want to
sit, but continues to answer the officers’ questions,
while not following their commands to sit.
After approximately six minutes of discussion, Officer Bailey grabs Dylan’s elbow to get him to sit down
because Dylan was “moving around too much” for her.
Again, there is nothing in the video that demonstrates
(and certainly not in the light most favorable to Plaintiffs) that Dylan’s “moving around” is dangerous, evidence of a crime, or another reason for the officers to
arrest him. Dylan pulls away from Officer Bailey’s
grasp and attempts to run away. The officers attempt
to subdue Dylan but he pulls free and runs into the
open-air shopping area. The officers give chase and
C.F. ex rel. Farnan v. Capistrano Unified Sch. Dist., 654 F.3d 975,
983 (9th Cir. 2011). In its finding that the officers acted reasonably in response to “Liberti’s jittery, confused demeanor, [and]
complaints of feeling ill,” the district court substituted its own
reasoning for that of the factfinder and improperly resolved a
question of fact against the non-moving party on summary judgment.
3
See Record of Climatological Observations at Scottsdale
Municipal Airport, AZ—July 27, 2016, NOAA, https://www.ncdc.
noaa.gov/cdo-web/search.

App. 9
find Dylan with a small knife. The officers order him to
drop the weapon, but he resumes running away from
the officers. When they catch up to him a second time,
Officer Bailey deploys her Taser, but it does not incapacitate Dylan. He gets up and begins to run. Officer
Fernandez-Kafati then fatally shoots Dylan.
Viewing the facts in the light most favorable to
Plaintiffs, the chase, tasering, and shooting might not
have occurred at all had Officer Bailey not grabbed
Dylan and tried to force him to sit down against his
wishes. Put another way, a reasonable trier of fact
could find that that initial use of force was the proximate cause of all that followed. Thus, under Arizona’s
wrongful death statute, if that use of force (and the actions surrounding it) was a “wrongful act, neglect or
default,” then Plaintiffs could make out a case for
wrongful death.
The videotape simply does not resolve all questions of material fact. A reasonable factfinder could, for
example, find that Officer Bailey’s initial use of force to
grab Dylan’s shoulder to force him to sit down on painfully hot concrete, could constitute false arrest or battery which proximately caused the chase, tasering,
shooting, and death. The video shows Dylan politely,
cogently, and fully answering the officers’ questions.
Sadly, it appears from the video that part of the officers’ unease was caused because they perhaps felt that
Dylan gave them a false name (like they thought he
was somehow making up a name—like “Liberty”). Also,
Officer Bailey called in Dylan’s date of birth

App. 10
incorrectly, possibly adding to her unease when the information does not appear to turn up anything.
Dylan only attempts to flee when Officer Bailey
grabs him in order to force him to do something he
clearly does not want to do—sit down on hot concrete.
Construing the facts in the light most favorable to
Plaintiffs, there is a question of fact as to whether Officer Bailey had probable cause to believe that Dylan
had committed an offense when she grabbed him. See
State v. Keener, 75 P.3d 119, 122 (Ariz. Ct. App. 2003)
(defining probable cause as “reasonably trustworthy
information and circumstances that would lead a person . . . to believe that a suspect has committed an offense” (internal quotation marks, alterations, and
citation omitted)). Without probable cause, a jury could
find that Officer Bailey had no legal authority to effect
a detention of Dylan, therefore falsely arresting him.
See Torrez v. Knowlton, 73 P.3d 1285, 1287 (Ariz. Ct.
App. 2003) (“[T]he tort of false arrest occurs when a
person is unlawfully detained without consent.”).4
The facts surrounding Officer Bailey’s use of force,
construed in the light most favorable to Plaintiffs, may
also support a battery claim. See Ryan v. Napier, 425
4

While a jury could find that Officer Bailey’s use of force was
reasonably used in the exercise of her community care role or that
it was merely detention pursuant to reasonable suspicion, the evidence simply does not compel this conclusion. Similarly, while
the jury might find that the officers were justified in using force
because Dylan’s actions violated certain Arizona state laws and
city ordinances, as argued by Defendants on appeal, the evidence
similarly does not compel such a conclusion, and certainly not
when viewed in the light most favorable to Plaintiffs.

App. 11
P.3d 230, 238 (Ariz. 2018) (acknowledging that the
facts pled for a police officer’s intentional use of force
supported an intentional battery claim). Battery is a
wrongful act, and on the record before us, a reasonable
jury could find such a battery proximately caused
Dylan’s death. For these reasons, Officer Bailey’s use
of force could constitute a wrongful act that ultimately
led to and proximately caused Dylan’s death. That the
officers are entitled to qualified immunity for Plaintiffs’ constitutional claims does not bear on this question.
A reasonable jury could find that Dylan should not
have died that hot Arizona summer day. And that jury
could find that the proximate cause of Dylan’s death
were wrongful acts under Arizona law. As I believe that
Dylan’s parents, the Plaintiffs here, should have the
opportunity to further proceed with their wrongful
death claims, I respectfully dissent from that portion
of the majority’s disposition upholding summary judgment in favor of Defendants on those claims.

App. 12
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Jeanine Liberti, et al.,
Plaintiffs,

No. CV-17-02813-PHXDLR

v.

ORDER

City of Scottsdale, et al.,

(Filed Sep. 11, 2018)

Defendants.
Plaintiffs are Jeanine and Michael Liberti, individually and as successors in interest to their deceased
son, Matthew Liberti (“Liberti”). Defendants are the
City of Scottsdale (“Scottsdale”), Scottsdale Police Officers Wilmer Fernandez-Kafati and Marjorie Bailey
(“the Officers”), and Scottsdale Police Chief Alan Rodbell. At issue is Defendants’ Motion for Summary
Judgment. (Doc. 30.) The motion is fully briefed and
the Court heard oral argument on July 19, 2018. For
the following reasons, Defendants’ motion is granted.
BACKGROUND
This case arises out of a fatal police-involved
shooting. On July 27, 2017, Liberti reached over the
counter at a Chompie’s restaurant in Scottsdale, dialed
911, and hung up after being confronted by the manager. (Doc. 31 ¶¶ 23-26, 30-38, 41.) When Scottsdale Police Dispatch called back, the manager described
Liberti and explained that the caller had left the store
without incident. (¶¶ 34-36.) Dispatch sent the Officers

App. 13
to perform a well-check shortly after 5:00 PM. (¶¶ 41,
56.)
When Fernandez-Kafati arrived at the scene, a
shopper waved him down to point out Liberti and say
he was “acting erratic . . . he looks weird; I don’t know
what’s wrong with him.” (¶ 47.) The Officers approached Liberti, who was pacing outside the entrance
of a Sprouts Farmers Market near Chompie’s. (¶ 46.)
When asked if he needed help, Liberti admitted to feeling “weird.” (¶¶ 66-67.) As captured by Bailey’s On
Body Camera (“OBC”), Liberti was pacing, fidgeting,
ignoring questions and commands, and intermittently
swaying closer to the Officers. (¶¶ 49-55, 58-61, 67-68,
72-93.) Liberti’s pacing and swaying grew increasingly
close to Bailey, who eventually insisted Liberti sit.
(¶¶ 90-92.) By the time Bailey insisted, Liberti had ignored or refused twenty-two police commands to sit
down. (¶¶ 92-93.) When Liberti ignored Bailey’s command, Bailey grabbed Liberti’s arm to force him to the
ground. (¶ 92.) Liberti jerked away, briefly grappled
with the Officers, and fled toward the nearby Courtyard Shoppes (“the Shoppes”). (¶¶ 92-104.)
The Officers pursued Liberti to the Shoppes.
(¶¶ 104-07.) Although both parties agree that the Officers drew their firearms and Liberti drew his knife
upon arriving at the Shoppes, they disagree on the order. Defendants contend that Liberti drew his knife
and the Officers drew their firearms in response.
(¶¶ 109-11.) Plaintiffs argue that the Officers drew
their firearms while Liberti was empty-handed, but
concede Liberti eventually drew his knife, rendering

App. 14
the disagreement immaterial. (Doc. 43 ¶¶ 110-11.) The
Officers demanded Liberti “get down” and drop the
knife. (Doc. 31 ¶ 113.) Liberti yelled “Please! Shoot me
in the head!” (¶ 114.) Bailey holstered her firearm and
drew her TASER. (¶ 118.) Liberti then began moving
past the Shoppes downstairs to a covered parking lot
with the Officers in pursuit. (¶¶ 121-24.)
The Officers found Liberti downstairs still holding
his knife. (¶ 125.) After again commanding Liberti to
sit and drop his knife, Bailey warned “Get down now
or I’m going to tase you!” (¶ 129.) Liberti refused, saying “Don’t tase me, shoot me!” (¶ 130.) Bailey tased
Liberti. (¶ 137.) Liberti collapsed, but soon recovered.
(¶¶ 138-40.) Liberti slashed his neck with his knife
several times and asked the Officers to shoot him.
(¶ 141.) Moments later, Liberti stood up. (¶ 149.)
Liberti then ran in Fernandez-Kafati’s direction
with the knife in his hand. (¶ 149.) Fernandez-Kafati
retreated backward while continuing to aim his firearm at Liberti. (¶ 154.) Liberti advanced several feet
before Fernandez-Kafati fired twice, striking Liberti.
(¶ 160.) Fewer than two seconds elapsed between
Liberti standing and Fernandez-Kafati firing. (¶ 162.)
Liberti was pronounced dead at the scene, having
suffered gunshot wounds to his abdomen and right leg,
as well as seven self-inflicted neck wounds. (¶¶ 183190.) The medical examiner confirmed that, at the time
of his death, Liberti tested positive for “high level[s] of
methamphetamine/amphetamine in cardiac blood and
liver.” (¶ 180.)

App. 15
Plaintiffs brought this action in November 2017,
alleging state law and constitutional torts, and claims
under Title II of the Americans with Disabilities Act
(“ADA”) and the Rehabilitation Act of 1973. Defendants move for summary judgment on all counts.
LEGAL STANDARD
Summary judgment is appropriate when there is
no genuine dispute as to any material fact and, viewing
those facts in a light most favorable to the nonmoving
party, the movant is entitled to judgment as a matter
of law. Fed. R. Civ. P. 56(a). Summary judgment may
also be entered “against a party who fails to make a
showing sufficient to establish the existence of an element essential to that party’s case, and on which that
party will bear the burden of proof at trial.” Celotex
Corp. v. Catrett, 477 U.S. 317, 322 (1986). A fact is material if it might affect the outcome of the case, and a
dispute is genuine if a reasonable jury could find for
the nonmoving party based on the competing evidence.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). The party seeking summary judgment “bears
the initial responsibility of informing the district court
of the basis for its motion, and identifying those portions of [the record] which it believes demonstrate the
absence of a genuine issue of material fact.” Celotex,
477 U.S. at 323. The burden then shifts to the non-movant to establish the existence of material factual issues that “can be resolved only by a finder of fact
because they may reasonably be resolved in favor of
either party.” Anderson, 477 U.S. at 250. Summary

App. 16
judgment, however, cannot be denied based solely on
“[s]urmise, conjecture, theory, speculation and an advocate’s suppositions.” McSherry v. City of Long Beach,
584 F.3d 1129, 1136 (9th Cir. 2009). “When opposing
parties tell two different stories, one of which is blatantly contradicted by the record, so that no reasonable
jury could believe it, a court should not adopt that version of the facts for purposes of ruling on a motion for
summary judgment.” Scott v. Harris, 550 U.S. 372, 380
(2007).
DISCUSSION
I.

Section 1983 Claims Against the Officers
(Count III)

Plaintiffs bring two claims under 42 U.S.C. § 1983.
First, they allege that the Officers violated Liberti’s
Fourth Amendment rights by unconstitutionally seizing him and using excessive force during the seizure.
Second, they allege that the Officers violated Liberti’s
and Plaintiff ’s Fourteenth Amendment right to due
process by “interfering in their familial relationship by
causing Liberti’s untimely death.” (Doc. 28 ¶ 103.) Defendants argue that summary judgment is warranted
because the undisputed evidence shows there was no
constitutional violation and, in the alternative, the Officers are entitled to qualified immunity.
Section 1983 creates a cause of action against any
person who, under color of state law, deprives another
of any rights, privileges, or immunities secured by the
Constitution and laws of the United States. Section

App. 17
1983 is not a source of substantive rights but merely a
method for vindicating federal rights established elsewhere. Graham v. Connor, 490 U.S. 386, 393-94 (1989).
To state a claim under § 1983, a plaintiff must allege
“(1) that a right secured by the Constitution or laws of
the United States was violated, and (2) that the alleged
violation was committed by a person acting under the
color of State law.” Long v. Cty. of L.A., 442 F.3d 1178,
1185 (9th Cir. 2006).
Qualified immunity insulates government actors
from suit under § 1983 unless the plaintiff can show
(1) that the actor violated a statutory or constitutional
right by acting unreasonably under the circumstances,
and (2) that the right was “clearly established” at the
time of the challenged conduct. City & Cty. of S.F. v.
Sheehan, 135 S. Ct. 1765, 1774 (2015). Because establishing a constitutional violation is a threshold issue
for both the § 1983 and qualified immunity inquiries,
the Court will first assess Plaintiffs’ Fourth and Fourteenth Amendment claims.
A. Fourth Amendment
Plaintiffs allege that detaining Liberti was an unreasonable seizure, and grabbing, tasing, and shooting
Liberti to subdue him constituted excessive force. The
Court addresses each in turn.
1. Detention
To the extent that Plaintiffs argue the Officers’ investigatory stop of Liberti—as opposed to the physical

App. 18
grabbing itself—violated Liberti’s Fourth Amendment
rights, the Court disagrees. A police officer may seize a
person for a brief investigatory stop if the officer has
reason to believe the person has broken the law. See
Terry v. Ohio, 392 U.S. 1, 23-27 (1968). Under Arizona
law, an officer may detain a mentally ill person if there
is probable cause to believe the person is a danger to
himself or others. A.R.S. § 36-525. “Probable cause exists where `the facts and circumstances within [an officer’s] knowledge and of which [he] had reasonably
trustworthy information [are] sufficient in themselves
to warrant a man of reasonable caution in the belief
that an offense has been or is being committed.” Safford Unified Sch. Dist. No. 1 v. Redding, 557 U.S. 364,
370 (2009). Officers may also detain individuals under
their community caretaking function to ensure the
safety of the public or the individual. See Martin v. City
of Oceanside, 360 F.3d 1078, 1082 (9th Cir. 2004).
Here, a reasonable jury could only find that the Officers were reasonable in their belief that Liberti’s jittery, confused demeanor, complaints of feeling ill, and
911 call indicated that he might have been under the
influence of a controlled substance. See Tatum v. City
& Cty. of S.F., 441 F.3d 1090, 1094-95 (9th Cir. 2006)
(noting that a detainee mumbling, disobeying commands and perspiring heavily created “a fair probability he had committed a crime”). Finally, the Officers
would have been within their rights as community
caretakers to detain Liberti for his own safety.
Oceanside, 360 F.3d at 1082. No reasonable jury could

App. 19
find that the Officers’ investigatory stop violated
Liberti’s Fourth Amendment rights.
2. Excessive Force
Plaintiffs claim that three acts of force violated
Liberti’s Fourth Amendment rights – Bailey grabbing
Liberti to force him to the ground, Bailey tasing
Liberti, and Fernandez-Kafati shooting Liberti. Defendants argue that the Officers acted reasonably, entitling them to summary judgment.
When assessing a police officer’s use of force, the
Court asks “whether the force that was used to effect a
particular seizure was reasonable.” Gregory v. Cty. of
Maui, 523 F.3d 1103, 1107 (9th Cir. 2008). To determine if force was reasonable, the Court must give
“careful attention to the facts and circumstances of
each particular case, including the severity of the
crime at issue, whether the suspect poses an immediate threat to the safety of the officers or others, and
whether he is actively resisting arrest or attempting to
evade arrest by flight.” Graham, 490 U.S. at 396. The
reasonableness determination is “judged from the perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight” and must allow “for the fact that police officers are often forced to
make split-second judgments . . . about the amount of
force necessary in a particular situation.” Id. at 39697.
Before addressing each discrete use of force, the
Court will address Plaintiffs’ frequent reference to

App. 20
Liberti’s mental illness. Plaintiffs argue that Liberti
was “obviously” in mental crisis, and that his mental
illness should bear on the Court’s determination of reasonableness in every instance. It is true that an officer’s awareness of a suspect’s mental illness may be
considered in a reasonableness determination. Plaintiffs, however, offer no evidence that it was—or should
have been—apparent to the Officers that Liberti was
mentally ill, whereas there is substantial evidence that
Liberti was both apparently and actually under the influence of methamphetamine. Plaintiffs’ argument
that Liberti was “in crisis,”1 and that the Officers
“knew” Liberti was mentally ill, is purely speculative.
Reasonableness is determined from the perspective of
an officer on the scene without the benefit of hindsight,
and here there is no evidence that the Officers were
warned that Liberti was mentally ill before the incident or that they should have known his erratic behavior was attributable to some unidentified mental
illness as opposed to intoxication.
a. Grabbing
Plaintiffs allege that Bailey grabbing Liberti by
the arm to direct him to a seated position—and the ensuing force used to prevent him from fleeing—was excessive. “[T]he degree of force used by the police is
permissible only when a strong government interest
1

Other that Plaintiffs’ vague description of Liberti as “in crisis,” there is no competent evidence of what kind of mental illness,
if any, Liberti was experiencing at the time of the incident.

App. 21
compels the employment of such force.” Drummond v.
City of Anaheim, 343 F.3d 1052, 1057 (9th Cir. 2003)
(internal quotation and citation omitted). Here, the Officers had reasonable suspicion and probable cause to
lawfully stop Liberti, as discussed above, and using
physical coercion to effect a stop is not excessive so long
as it is reasonable. See Graham, 490 U.S. at 396 (“[T]he
right to make an arrest or investigatory stop necessarily carries with it the right to use some degree of
physical coercion or threat thereof to effect it.”).
Plaintiffs claim that Liberti was “mostly compliant” during his detention, but this allegation is unsupported by evidence. Liberti ignored police commands
several times. (Doc. 31 ¶ 93.) Liberti’s refusal to obey
police commands, combined with his apparent intoxication, created a government interest in subduing him
before he harmed himself or the public. Bailey was not
required to use the least intrusive degree of force possible to pursue that interest, but still did so by escalating from verbal commands to empty-hand coercion.2
(Doc. 31 ¶ 92); Gregory, 523 F.3d at 1107. Once Liberti
began struggling against Bailey’s empty-hand coercion, he was resisting arrest and posed an immediate
threat to the Officer’s safety. Thus, no reasonable jury
could find Bailey’s use of force in grabbing and later
attempting to restrain Liberti was objectively unreasonable.

2

The Scottsdale Police Department uses four escalating levels of force: verbal commands, empty hand tactics, intermediate
weapons (TASER), and deadly force. (Doc. 43 ¶ 52.)

App. 22
b. Tasing
Plaintiffs allege that Bailey tasing Liberti was excessive. A TASER used in probe mode is an intermediate or medium level of force that must be justified by
the government’s interest. Bryan v. MacPherson, 630
F.3d 805, 826 (9th Cir. 2010). It is not unreasonable for
a police officer to use a TASER, even without warning,
on suspects who fail to obey police commands and create a “difficult, tense and uncertain” situation.3 See
Draper v. Reynolds, 369 F.3d 1270, 1278 (11th Cir.
2004) (holding officer’s use of TASER without warning
was justified when suspect in traffic stop repeatedly refused to comply with commands); Roell v. Hamilton
Cty., 870 F.3d 471, 481 (6th Cir. 2017) (citing Cockrell
v. City of Cincinnati, 468 Fed. App’x 491, 495 (6th Cir.
20212) as “recognizing numerous cases holding that an
officer’s use of a TASER against a plaintiff who is actively resisting arrest by physically struggling with,
threatening, or disobeying officers is not a violation of
the plaintiff ’s clearly established Fourth Amendment
rights, even if the plaintiff is suspected of committing
only a misdemeanor”).
When Bailey deployed her TASER, she had already attempted verbal commands and empty-hand
coercion. (Doc. 31 ¶ 92.) Liberti at that point was wielding a knife, had assaulted Bailey while resisting arrest,
and still was apparently under the influence of
3

Bailey did, however, give Liberti warnings to drop the knife
and “get down now or I’m going to `tase’ you.” (Doc. 31 ¶ 129.)
Under Graham, a warning weighs in favor of reasonableness.

App. 23
methamphetamine. The government’s interest in subduing Liberti, who was continuing to disobey police
commands and becoming a significant threat to the Officers and the public, had become substantial. No reasonable jury could find that Bailey’s use of force in
tasing Liberti was objectively unreasonable.
c. Deadly Force
Plaintiffs allege that Fernandez-Kafati’s use of
deadly force against Liberti was excessive. “Where the
suspect poses no immediate threat to the officer and no
threat to others, the harm resulting from failing to apprehend him does not justify the use of deadly force to
do so.” Tennessee v. Garner, 471 U.S. 1, 11 (1985). The
Constitution, however, “permit[s] the use of deadly
force against a suspect who poses . . . an imminent
threat of danger to a police officer or others.” McCormick v. City of Fort Lauderdale, 333 F.3d 1234, 1246
(11th Cir. 2003).
By the time Fernandez-Kafati fatally shot Liberti,
verbal commands, empty-hand coercion, and TASER
incapacitation had all failed to subdue Liberti. According to Bailey’s OBC, Liberti collapsed after being tased,
slashed his neck, screamed “Kill me, motherfucker!”,
stumbled to his feet, screamed “Kill me!”, and lunged
in Fernandez-Kafati’s direction with knife in hand, ultimately coming within five feet of the Officer’s position.4 (Doc. 31 ¶¶ 137-156.) Plaintiffs argue that
4

Suspects within 21 feet of a police officer are within “the
zone of danger,” which is considered the distance that can be

App. 24
Liberti was trying to escape along the parking structure’s wall. (Doc. 43 ¶ 150.) It is unclear if Liberti was
intentionally threatening Fernandez-Kafati by moving
in his direction with knife in hand, but under Graham,
the Court must view the incident from the perspective
of a reasonable officer on the scene rather than guess
at Liberti’s motivations. Based on Bailey’s OBC, a reasonable officer would not have known that Liberti was
attempting to escape. But even taking Plaintiffs’ version of events as true, Liberti was armed with a dangerous weapon and, at the very least, trying to evade
arrest by fleeing into a crowded shopping center. Based
on the undisputed evidence and the totality of the circumstances, it was reasonable for Fernandez-Kafati to
believe that Liberti posed an immediate threat to himself or the public. Thus, no reasonable jury could find
Fernandez-Kafati’s use of force in shooting Liberti was
objectively unreasonable. Defendants therefore are entitled to summary judgment on Plaintiffs’ Fourth
Amendment claim.

closed by an attacker before the officer can react to protect herself.
See Prostrollo v. City of Scottsdale, 676 F. App’x 678, 679 (9th Cir.
2017) (holding an officer acted reasonably in shooting mentally
disturbed man wielding pool cue who was within 17 feet of officers).

App. 25
B. Fourteenth Amendment
Plaintiffs allege that the Officers violated Liberti’s
and Plaintiffs’ Fourteenth Amendment rights to due
process, specifically by “interfering in their familial relationship by causing Liberti’s untimely death.” (Doc.
28 ¶ 103.) A police officer using deadly force violates
the Fourteenth Amendment if he acts with “a purpose
to harm without . . . legitimate law enforcement objectives.” Zion v. Cty. of Orange, 874 F.3d 1072 (9th Cir.
2017). Legitimate law enforcement objectives include
“stopping a dangerous suspect.” Id. The Court has determined that a reasonable jury could only find the Officers acted with the legitimate objective of stopping
Liberti, a dangerous suspect, from harming the Officers or the public. Accordingly, Defendants are entitled
to summary judgment on Plaintiffs’ Fourteenth
Amendment claim.
II.

Vicarious § 1983 Claims (Count III)

Plaintiffs allege that the City of Scottsdale and
Rodbell violated Plaintiffs’ rights by, among other
things, failing to implement appropriate policies on the
use of deadly force. Yet no reasonable jury could find
that the Officers committed a constitutional or statutory violation while interacting with Liberti. Neither
the City of Scottsdale nor the Rodbell may be liable under § 1983 without an underlying statutory or constitutional violation. See Tatum, 441 F.3d at 1100.
Defendants are entitled to summary judgment on this
claim.

App. 26
III. Negligence & Wrongful Death (Counts I &
II)
In Count I, Plaintiffs allege that the Officers
breached a duty of care owed to Liberti by failing to
carry out their duties in a reasonably prudent manner.
They claim grabbing and tasing Liberti to effect an arrest was an unreasonable use of force in violation of
A.R.S. § 13-3881(B), constituting negligence per se. In
Count II, Plaintiffs allege that the Officers’ negligence
caused Liberti’s death, and under A.R.S. § 12-611 they
are entitled to injuries and losses stemming from that
death. Counsel for both parties, however, agreed during oral argument that Counts I and II necessarily fail
if the Court grants summary judgment to Defendants
on Count III based on a finding of objective reasonableness. The Court therefore grants summary judgment
in favor of Defendants on both counts because a reasonable jury could only find that the Officers acted reasonably under the circumstances.
IV. Title II of the ADA & Rehabilitation Act of
1973 (Count IV)
Plaintiffs allege the City of Scottsdale and Rodbell
breached their obligations under the ADA and the Rehabilitation Act by, among other things, failing to provide police services that were appropriate in light of
Liberti’s disability. At oral argument, Plaintiffs’ counsel expanded on the allegation, propounding that Defendants discriminated against Liberti by failing to
dispatch officers trained to deal with mentally ill suspects. Counsel suggested that dispatching Scottsdale’s

App. 27
“Police Crisis Intervention Specialists” might have prevented unnecessary escalation leading to the use of
force. Plaintiffs’ counsel conceded, however, that Count
IV would necessarily fail if the Court grants summary
judgment to Defendants on Count III based on a finding of objective reasonableness. The Court therefore
grants summary judgment for Defendants on Count
IV.
CONCLUSION
Based on the undisputed evidence, no reasonable
jury could conclude that the Officers acted unreasonable under the circumstances. Accordingly,
IT IS ORDERED that Defendants’ Motion for
Summary Judgment (Doc. 30) is GRANTED. The
Clerk shall enter judgment in favor of Defendants, terminate all remaining motions and deadlines, and close
this case.
Dated this 10th day of September, 2018.
/s/ Douglas L. Rayes
Douglas L. Rayes
United States District Judge

App. 28
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Jeanine Liberti, et al.,
Plaintiffs,
v.
City of Scottsdale, et al.,

NO. CV-17-02813PHX-DLR
JUDGMENT IN A
CIVIL CASE
(Filed Sep. 11, 2018)

Defendants.
Decision by Court. This action came for consideration before the Court. The issues have been considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that, pursuant to the Court’s Order filed September 11, 2018,
which granted the Motion for Summary Judgment,
judgment is entered in favor of defendants and against
plaintiffs. Plaintiffs to take nothing, and the amended
complaint and action are dismissed with prejudice.
Brian D. Karth
District Court Executive/Clerk of Court
September 11, 2018
s/ L. Dxon
By Deputy Clerk

App. 29
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JEANINE LIBERTI;
MICHAEL LIBERTI,
individually and as surviving
parents of Dylan Liberti,
decedent,
Plaintiffs-Appellants,
v.

No. 18-16938
D.D. No. 2:17-cv-02813DLR
District of Arizona,
Phoenix
ORDER
(Filed Jul. 30, 2020)

CITY OF SCOTTSDALE;
et al.,
Defendants-Appellees,
and
DOES, named as John and/
or Jane Does I through V,
fictitious individuals; ABC
Corporations and/or Partnerships and/or Sole Proprietorships and/or Joint Ventures
I-X, fictitious entities,
Defendant.
Before: HAWKINS, OWENS, and BENNETT, Circuit
Judges.
Appellants, Jeanine Liberti and Michael Liberti,
filed a petition for panel rehearing and for rehearing
en banc. [Dkt. 46] . A majority of the panel has voted to

App. 30
deny the petition for panel rehearing. Judge Bennett
voted to grant the petition for panel rehearing.
Judges Owens and Bennett vote to deny the petition for rehearing en banc, and Judge Hawkins so recommends. The full court has been advised of the
petition for rehearing en Banc, and no judge has requested a vote on whether to rehear the matter en
Banc. See Fed. R. App. P. 35
The petition for panel rehearing and rehearing en
Banc is DENIED.

App. 31
No. 18-16938
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JEANINE LIBERTI; MICHAEL
LIBERTI, individually and as
surviving parents of Dylan
Liberti, decedent,
Plaintiffs - Appellants,

No. 18-16938
D.C. No. 2:17-cv02813-DLR
U.S. District Court
for Arizona, Phoenix

v.
OPENING BRIEF
CITY OF SCOTTSDALE;
WILMER FERNANDEZKAFATI, Officer, #1476;
FERNANDEZ-KAFATI, named
as Jane Doe Fernandez-Kafati;
MAJORI E BAILEY, #1469;
BAILEY, named as John Doe
Bailey; ALAN ROD BELL,
in his individual and official
capacity as Chief of Scottsdale
Police Department; RODBELL,
named as Jane Doe Rodbell,
Defendants – Appellees,
and
DOES, named as John and/or
Jane Does I through V, fictitious individuals; ABC Corporations and/or Partnerships
and/or Sole Proprietorships
and/or Joint Ventures I-X,
fictitious entities,
Defendants.

App. 32
OPENING BRIEF
David L. Abney, Esq.
Arizona State Bar No. 009001
AHWATUKEE LEGAL OFFICE, P.C.
Post Office Box 50351
Phoenix, Arizona 85076
(480) 734-8652
abneymaturin@aol.com
Attorney for Plaintiffs – Appellants
*

*

*

Statement of Facts
1. Reconstructing the fatal shooting based on
the police officers’ untested statements tells
a story that is unverifiable and subjective.
The July 27, 2016 “check-welfare call” that ended
with City of Scottsdale Police Officer Wilmer FernandezKafati fatally shooting Dylan Liberti started near the
Sprouts grocery store located at 9301 East Shea Boulevard in Scottsdale, Arizona. (Doc. 31-4, Exh. 42 at Page
7 of 125) (ER-051).
City of Scottsdale Police Officer Marjorie Bailey
stated that she and Officer Fernandez-Kafati were responding to “a check welfare” call “because there was a
gentleman [Dylan] that went into Chompie’s which is
next to Sprouts . . . and he used a phone in there to call
911 and . . . they said he – he didn’t look well . . . and
then he left the store.” (Doc. 31-1, Exh. 1 at Page 6 of
109, 6:54-63) (ER-028).
A 911 dispatcher had called back to the Chompie’s
restaurant to see if everything was okay there. Unlike

App. 33
the version of the 911 call and its aftermath that Officer Fernandez-Kafati provided, the Chompie’s employee who responded to the 911 dispatcher actually
explained that everything was okay as far as the people at Chompie’s could say. “There was a young man,”
the Chompies employee said, “that came in here and
was reaching for the phone. I asked him if he needed
anything and he shook his head and exited the front
door.” (Doc. 31-1, Exh. 18 at Page 106 of 109) (ER-043).
Actually, after Officer Fernandez-Kafati was dispatched to the area for the 911 call, he stated that the
call was “then changed to a check welfare call for a
white male subject,” who turned out to be Dylan
Liberti. (Doc. 31-1, Exh. 18 at Page 100 of 109) (ER039). In other words, the 911 call ended before the police officers had any contact or issues with Dylan.
In a post-shooting interview, Officer Bailey
claimed that, during her encounter with Dylan, he supposedly kept trying to touch his pockets, which, according to Officer Bailey, was something that supposedly
“made us a little bit uncomfortable because we don’t
know what he has on him.” (Doc. 31-1, Exh. 1 at Page
7 of 109, 3:85-86) (ER-029). Officer Bailey claimed that
Dylan “continued to try to go after his pockets and he
was – he seemed as though he was looking for something.” (Doc. 31-1, Exh. 1 at Page 7 of 109, 3:95-97) (ER029).
•

But Officer Bailey’s body-camera video
never showed Dylan trying to touch his
pockets, from first contact until after the

App. 34
police unexpectedly grabbed him with no
provocation and then chased after him,
screaming and with aimed service pistols.
He usually had his hands casually on his
hips or crossed over his chest.
Officer Bailey explained they had not patted
Dylan down for weapons because: “It was just a check
welfare call.” (Doc. 31-5, Exh. 58, at Page 28 of 141,
28:735-736) (ER-058). In one of his post-shooting interviews, however, Officer Fernandez-Kafati claimed that
from the very start of their encounter, Dylan was supposedly not free to go and was being lawfully detained.
(Doc. 31-6, Exh. 71 at Page 17 of 71, 17:225-231) (ER075).1
•

1

But Officer Bailey’s body-camera video
shows that at no point in the encounter
between Dylan and the two police officers—until after Officer Bailey unexpectedly and with no warning or provocation
grabbed Dylan—did the police officers indicate to Dylan that he was under arrest,
that he was being detained, that he was

The district court stated that “by the time [Officer] Bailey
insisted [that Dylan sit down], Liberti had ignored or refused
twenty-two police commands to sit down.” (Doc. 053 at 2:10-11)
(ER-011). But that misconstrues the facts. Officer Bailey’s bodycamera video shows the police officers were trying to persuade
Dylan to sit down on the floor or ground. When Dylan refused,
which was his right, the efforts at persuasion turned into rude
and increasingly discordant demands. Dylan had the right to
stand if he wanted to stand. Refusing to sit (at a place with no
seats or benches) gave the police officers no right to grab Dylan
and try to wrestle him to the ground.

App. 35
not free to go, or that he had to do anything. If Dylan was being detained, no one
ever told him that.
Officer Bailey admitted she initiated physical contact with Dylan when she “placed [her] hand on his
shoulder.” (Doc. 31-1, Exh. 1 at Page 8 of 109, 8:104)
(ER-030). Officer Bailey claimed that she “touched his
shoulder with my hand, not in an aggressive manner
at all.” (Doc. 31-1, Exh. 1 at Page 8 of 109, 8:104-05)
(ER-030). Officer Fernandez-Kafati, however, said that
“Officer Bailey attempted to grab [Dylan] by the arm
to sit him down.” (Doc. 031-1, Exh. 18 at Page 100 of
109) (ER-039).
•

But Officer Bailey’s body-video confirms
she assaulted Dylan with no provocation
by unexpectedly and forcibly grabbing
him with both of her hands. Officer Fernandez-Kafati then joined in on the unprovoked, violent, sudden, and aggressive
attack.

In a post-shooting statement, Officer FernandezKafati claimed Dylan had “continued to ‘break that
safety zone’ and he told him repeatedly to move back.”
(Doc. 031-1, Exh. 18 at Page 1 00 of 109) (ER-039). Officer Fernandez-Kafati even claimed that Dylan was
“trying to circle us.” (Doc. 031-1, Exh. 18 at Page 100 of
109) (ER-039).
•

But Officer Bailey’s body-camera video
shows that not once did either police officer tell Dylan to move back; not once did
Dylan try to crowd close to either police

App. 36
officer. He was certainly not trying to “circle” them. In fact, Dylan edged away from
them as much as he could as they
crowded into his space.2
Officer Bailey claimed the police officers were trying to “forcibly sit him down because we weren’t sure
why he was running away.” (Doc. 31-1, Exh. 1 at Page
8 of 109, 8:106-108) (ER-030).
•

But Officer Bailey’s body-video shows
that, before she assaulted Dylan, he was
simply standing next to the police officers,
was talking calmly and quietly with
them, and was not running away.

Officer Bailey admitted “forcibly” trying to compel
Dylan to sit down was “really when everything
started.” (Doc. 31-1, Exh. 1 at Page 8 of 109, 8:106-109)
(ER-030).3

2

The district court claimed Dylan had been “pacing, fidgeting, ignoring questions and commands, and intermittently swaying closer to the Officers.” (Doc. 053 at 2:6-8) (ER-011). But Officer
Bailey’s body-camera video shows Dylan was mostly standing
still, did not fidget, answered questions, and never swayed closer
to the police officers. He did not ignore commands; he simply
chose not to comply with the police officers’ increasingly strident
demands that he sit down at a place lacking seats or benches, and
only had a concrete floor. In the heat of the day in a Scottsdale
summer, only someone wanting to get very hot or get a contact
burn sits on an outdoor concrete floor. In any event, even Officer
Fernandez-Kafati admitted Dylan “was really quiet.” (Doc. 31-6
at Page 14 of 71, 14:129) (ER-072).
3
The district court claimed “Liberti’s pacing and swaying
grew increasingly close to [Officer] Bailey.” (Doc. 053 at 2:6-8)
(ER-011). That is incorrect. Officer Bailey’s body-camera video

App. 37
Kelly Johnson, a civilian witness, stated that “the
officer goes to grab him and he just starts breaking
away and they’re both holding onto him and he is
fighting them. Not – not swinging, but backing up,
moving around – slippery probably. Just trying to get
away.” (Doc. 31-3, Exh. 35 at Page 12 of 117, 12:59- 61)
(ER-047). The Sprouts store video showed “the two officers grabbing and trying to get their hands [on] and
[get] control of Dylan who is pulling and twisting
away.” (Doc. 31-4, Exh. 42 at Page 12 of 125, at 12) (ER054).
Officer Fernandez-Kafati said that Dylan struggled, pulled away, and ran south—away from Officer
Fernandez-Kafati and Officer Bailey. (Doc. 31-1, Exh.
18 at Page 100 of 109) (ER-039). Along the way, Dylan
pulled a small knife from a pants pocket, whether in a
gesture of panic, desperation, or self-defense we shall
never know. (Doc 31-1, Exh. 1, Page 8 of 109, 8:123-24)
(ER-030).
After Dylan had stopped running at the parking
garage and was pacing back and forth, Officer Bailey
shot a Taser into Dylan, who, Officer Fernandez-Kafati
said, “locked up,” fell to the ground, rolled onto his
back, and then later got up. (Doc. 31-1, Exh. 18 at Page
101 of 109) (ER-040). Officer Fernandez-Kafati claims
he had his own Taser out. He then claims that he put
away his Taser and drew his service weapon. (Doc. 311, Exh. 18 at Page 100 of 109) (ER-039).
shows that Liberti was not pacing and that he kept trying to edge
away from the police officers, who kept crowding toward him.

App. 38
•

But Officer Bailey’s body-video does not
show Officer Fernandez-Kafati ever pulling out his Taser.

Officer Bailey claims that, despite having received
a shot from the Taser, Dylan “gets up very quickly and
still has that knife in his hand.” (Doc. 31-5, Exh. 58,
Page 40 of 141, 40:1108) (ER-059).
•

But Officer Bailey’s body-camera video
shows that, after being shocked with the
Taser, Dylan got up slowly.

Officer Bailey claims that before she could do anything about a second deployment of the Taser or anything else, Dylan supposedly “runs straight toward”
Officer Fernandez-Kafati. (Doc. 31-5, Exh. 58 at Page
40 of 141, 40:1112-1116) (ER-059). “I mean to me,” Officer Bailey said, “what it looked like is him running
straight at” Officer Fernandez-Kafati. (Doc. 31-5, Exh.
58 at Page 41 of 141, 41:1142) (ER-060).
Officer Fernandez-Kafati claimed Dylan supposedly “charged toward him with the knife in his hand.”
(Doc. 31-1, Exh. 18 at Page 101 of 109) (ER-040). Officer
Fernandez-Kafati was then holding a .40 caliber Model
11 Glock pistol and aiming it at Dylan. (Doc. 31-1, Exh.
18 at Page 99 of 109) (ER-038).
•

But Officer Bailey’s body-camera video is
ambiguous about whether Dylan was actually staggering in Officer FernandezKafati’s direction or whether Dylan was
staggering more to his right to get around

App. 39
the wall and evade Officer FernandezKafati.
An eyewitness who saw Officer Fernandez-Kafati
before the shooting said the officer looked “frightened,”
and “panicked” and was “shaking” and “breathing
heavily.” (Doc. 31-4, Exh. 42 at Page 9 of 125) (ER-000).
Officer Fernandez-Kafati claimed “he backtracked” and fired two rounds from his pistol into
Dylan. (Doc. 31-1, Exh. 18 at Page 101 of 109) (ER-053).
More fully, Officer Fernandez-Kafati claimed that after
Dylan had been shot by the Taser: “And that’s when he
got up – charged me with the knife in hand. I stepped
back a little bit – kept stepping back – shot – shot –
shot and that’s where he fell right there.” (Doc. 31-5,
Exh. 66 at Page 130 of 141, 130:734-736) (ER-064).
Officer Fernandez-Kafati claimed Dylan “was
within five feet easily” when he shot Dylan. (Doc. 31-5,
Exh. 66 at Page 133 of 141, 133:821-828) (ER-065).
•

But Officer Bailey’s body-camera video
indicates the distance was greater than
that. Of course, the exact distance, or
even an estimate of it, is a difficult judgment call solely for the trier of fact to
make.

Although Officer Fernandez-Kafati fired twice,
Officer Bailey said she “heard . . . three gunshots” and
Dylan “went to the ground still kind of holding his
head up and with the knife in his hand.” (Doc. 31-5,
Exh. 58 at Page 41 of 141, 41:1150-1151) (ER-060).

App. 40
As far as what Officer Fernandez-Kafati was
thinking just before shooting Dylan, in a post-shooting
interview he admitted:
Officer Fernandez-Kafati: Um, by the time I was
done looking at [Officer
Bailey using the Taser]
he had already gotten
up and he was charging
me. A – from what I remember. And at that
point I was like I’m
pointing a gun at him.
Why is he coming? And
then I kept replaying it
in my head – uh-oh, media stuff.
Question:

Uh-yeah.

Officer Fernandez-Kafati And it was like okay
whatever.
(Doc. 31-6, Exh. 71 at Page 15 of 71, 15:178-185) (ER000).
When discussing the effect on him of killing Dylan,
Officer Fernandez-Kafati said: “It was too cookie cutter
for me I thought. . . . It wasn’t personalized.” (Doc. 316, Exh. 17 at Page 27 of 71, 27:553-557) (ER-076).
Officer Fernandez-Kafati said that after he shot
Dylan, the young man fell to the ground and seemed to
try to cut his neck with a knife. (Doc. 31-1, Exh. 18 at
Page 101 of 109) (ER-040). Officer Bailey said that after Officer Fernandez-Kafati shot Dylan, he supposedly

App. 41
“proceeded to stab himself in the neck and also slit his
own throat.” (Doc. 31-1, Exh. 1 at Page 10 of 109,
10:162-163) (ER-032). Why the defense keeps bringing
up the alleged neck self-stabbing is unclear, since
Dylan rapidly bled to death at the scene from the gunshot wounds.
In any event, a bystander said that after the police
officer shot Dylan he was “motionless, nonresponsive
on the ground.” (Doc. 31-3, Exh. 35 at Page 30 of 117,
30:599-601) (ER-048).
Over and over, in matters great and small, Officer
Bailey’s objective body-camera video repeatedly contradicts the subjective, inaccurate, and often self-serving stories Officers Fernandez-Kafati and Bailey told
after the shooting. As far as the police officers’ credibility and the weight to give their testimony, the jury will
have much to weigh and consider. But “when ruling on
a summary judgment motion, the district court is not
empowered to make credibility determinations or
weigh conflicting evidence.” McGinest v. GTE Service
Corp., 360 F.3d 1103, 1113 n. 5 (9th Cir. 2004). The district court here, however, did just that.
2. Reconstructing the fatal shooting based on
Officer Bailey’s body-camera video tells a
story that is verifiable and objective.
Officer Bailey’s body-camera video depicts objectively events the police officers who caused Dylan’s
death remember subjectively. Reasonable jurors could
view the body-camera video, weigh what it depicts, and

App. 42
conclude the police officers had themselves needlessly
precipitated a crisis with Dylan by suddenly and without provocation grabbing and startling him.
Reasonable jurors could view the body-camera
video and conclude that the police officers used excessive force in shooting Dylan when he was trying to
evade Officer Fernandez-Kafati and find refuge elsewhere from the police officers who had unexpectedly
attacked him without provocation, who had chased
him screaming and pointing service pistols at him, and
who had electrically shocked him—all because he had
not wanted to sit down.
Officer Bailey’s body-camera video gives objective
evidence that reasonable jurors can replay and test as
often as they need. It is objective evidence from which
reasonable jurors can reach their own conclusions
about the officers’ conduct and particularly about the
ambiguous seconds just before Officer FernandezKafati fatally shot Dylan Liberti.
We thus implore the Court to watch the first 10
minutes of Officer Bailey’s body-camera video with
great care. Parts are ambiguous. For instance, was
Dylan moving toward the police officer just before
Dylan was shot, or was he stumbling sideways to try to
slide by that officer? Was Dylan a viable threat as he
stumbled along the wall to his right? Or was Dylan
simply trying to get away from the police officers
who had first unexpectedly and without provocation
grabbed him, attacked him, screamed at him, chased

App. 43
him with drawn service pistols aimed at him, and then
shocked him with a high-voltage Taser?
Ambiguities are inherent in capturing any event
in any medium. The best example of an ambiguous
video remains the Abraham Zapruder home-movie film
of John F. Kennedy’s assassination in Dallas on November 23, 1962.4 In a summary-judgment setting,
however, ambiguities must be resolved in favor of the
nonmoving party. See, e.g., Porter v. Osborn, 546 F.3d
1131, 1133 (9th Cir. 2008); Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 255 (1986).
3. The first ten minutes of Officer Bailey’s bodycamera video precludes summary judgment
because it offers objective evidence that reasonable jurors can weigh to find that, under
the circumstances, the police officers used
excessive force.
Officer Bailey’s body-camera video speaks for itself. It captures the initial police contact, the sudden
and unprovoked assault on Dylan, the screaming
4

“Example of inscrutable images are everywhere once you
look for them, from the most popular to the most mundane. The
images of the Zapruder film capturing images from a particular
perspective of the assassination of President John F. Kennedy,
are notoriously ambiguous concerning the issue for which people
inspect them: Who killed JFK? We may watch these films over
and over, witness the violence and horror of the moments, but in
doing so we know no more or less about the mysteries of the
shooter and his mechanism.” Jessica Silbey, Images In/Of Law,
57 N.Y. L. Sch. L. Rev. 171, 173-74 (2012/2013) (citations omitted).

App. 44
police foot chase with drawn and aimed service pistols,
the Taser attack, and the fatal shooting. A “videotape
of undisputed validity should be treated as providing
undisputed facts at summary judgment.” Recchia v.
City of Los Angeles Dept. of Animal Services, 889 F.3d
553, 556 n.1 (9th Cir. 2018) (citing the holding in Scott
v. Harris, 550 U.S. 372, 380-81 (2007)).
In an Order filed on December 28, 2017, the district court directed that the Clerk of the Court was to
accept for filing a number of non-paper exhibits, including “Officer Bailey’s OBC [body-camera] Video
(Exh. 4).” (Doc. 33 at 1:15- 21). At oral argument on
the motion for summary judgment, the district judge
confirmed that he had “viewed the video” and “saw the
video.” Transcript at 3:14, 3:25~4:1; 12:14 (ER-096, ER097, ER-105). As the district court said, “we’ve all seen
this video, and it’s a terrible thing to see.” Transcript
at 27:3-4 (ER-120).
Officer Bailey’s body-camera is an essential part of
the record and an item of evidence that the district
court weighed in determining the truth of the matter
and granting summary judgment against the Libertis.
The district court did that, although “at the summary judgment stage the judge’s function is not himself to weigh the evidence and determine the truth of
the matter but to determine whether there is a genuine issue for trial.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 249 (1986). “In assessing whether a genuine
issue of material fact exists for trial,” neither the district court not this Court can “weigh the evidence, nor

App. 45
make factual or credibility determinations.” Fuller v.
Idaho Dept. of Corrections, 865 F.3d 1154, 1161 (9th
Cir. 2017).
As an aid to the Court in watching Officer Bailey’s
body-camera video, these are the highlights of the
body-camera video’s crucial first 9 minutes and 56 seconds:
Time

Audio and/or actions

00:00

[Officer Bailey arrives at the Sprouts shopping center and makes her first contact with
Dylan outside Sprouts. Officer FernandezKafati is already there, speaking with Dylan.
The audio is off until 00:30.]

00:30

Officer Fernandez-Kafati: “Take a seat man,
you seem like you’re jittery. Here, just sit
down so we can talk with you.”

00:34

Officer Bailey: “Have a seat.”

00:36

Officer Fernandez-Kafati: “The guy told me
you walked into Chompie’s and dialed 911.
You need help? What’s up? You all right?”

00:42

Dylan: “Yeah.”

00:42

Officer Fernandez-Kafati: “We can get Fire
over here to check you out, man.” [The police
officers did not call for any assistance from the
Fire Department until after Officer Fernandez-Kafati fatally shot Dylan.]

00:43

Dylan: “No, I’m good.”

00:44

Officer Fernandez-Kafati: “So what’s up?”

App. 46
00:44

Officer Bailey: “Here, come over here and sit
down in the shade, all right?”

00:46

Dylan: “I’m good, man.”

00:47

Officer Bailey: “No. I want you to. Go over
there and sit down.”

00:49

Dylan: “No.”

00:50

Officer Fernandez-Kafati: “You need to come,
to come listen to us, man.”

00:52

Officer Bailey: “Go sit down.”

00:52

Officer Fernandez-Kafati: “Just sit over here
in the shade. That way you’re not in the sun.
Come on.”

00:53

Officer Bailey: “Come on, let’s go. We can talk.”

00:56

Officer Bailey: “Go sit down.”

00:57

Dylan: “Can I just stand and talk with you
guys?”

00:58

Officer Bailey: “No. I want you to stand in the
shade over there.”

00:59

Officer Fernandez-Kafati: “Cover over here in
the shade, man. Come over here in the shade,
man. Come over.”

01:01

Officer Bailey: “Okay? You’re in the sun. It’s
hot out.”

01:04

Officer Fernandez-Kafati: “You don’t feel like
. . . you don’t look like you’re too good, man.
You all right?”

App. 47
01:06

Dylan: “It’s just really, it’s just really fucking. . . . It’s really hot.”

01:08

Officer Bailey: “Yeah, okay. Go sit down.”

01:09

Officer Fernandez-Kafati: “Yeah. Come on, be
in the shade. Come talk to us in the shade.
Come on.”

01:11

Dylan moves over closer to a shaded area by a
store entrance.

01:14

Officer Fernandez-Kafati: “Stay right here.”

01:15

Officer Bailey: “Right there.”

01:15

Officer Fernandez-Kafati: “You want to sit
down? You want to sit down right here?”

01:19

Officer Fernandez-Kafati: “Yeah, just have a
seat right there, man.”

01:21

Officer Bailey: “Right there.”

01:22

Officer Fernandez-Kafati: “We need to talk to
you. Come on.”

01:22

Officer Bailey: “It’s shady, right there. Sit
down. Now.”

01:27

Officer Fernandez-Kafati: “So what’s up?
What’s going on? Tell us.”

01:30

[Dylan mumbles.] “Ah . . . [unclear].”

01:38

Officer Bailey: “Do you have ID on you, or anything?”

01:40

Officer Fernandez Kafati: “He said he doesn’t
have any.”

01:41

Officer Bailey: “No? What’s your name?”

App. 48
01:44

Dylan: “Dylan.”

01:44

Officer Fernandez Kafati: “Dylan your first
name? What’s your last name, Bud?”

01:46

Dylan: “Liberti.”

01:47

Officer Fernandez-Kafati: “Leeb?”

01:48

Dylan: “No. Liberti.”

01:49

Officer Fernandez-Kafati: “What?”

01:50

Dylan: “Liberti.”

01:51

Officer Fernandez-Kafati: “Liberty?” [unclear]
When were you born? What’s your date of
birth, man?”

01:52

Dylan: “4-1-92”

01:57

Officer Fernandez-Kafati: “I can’t hear you.”
[unclear]

01:57

Dylan: “4-1-92.”

01:59

Officer Fernandez-Kafati: “4-1-92?”

01:59

Officer Bailey: “4-1-92.”

02:00

Officer Fernandez-Kafati: “All right. Just tell
me what’s up.”

02:01

Officer Bailey: “How do you spell your first
name? Is it with ‘on’ or . . . ?”

02:03

Dylan: “D-y-l-a-n.”

02:05

Officer Bailey: “What?”

02:06

Dylan: “D-y-l-a-n.”

02:07

Officer Bailey: “Okay.”

App. 49
02:08

Officer Fernandez-Kafati: “Here’s, here’s what
happens. Someone said you just called 911.
That’s what we’re here for. Do you need help?
What’s up?”

02:15

Dylan: “Umm . . . ”

02:19

Officer Fernandez-Kafati: “You can talk with
us, man. That’s why we’re here. You call 911.
We respond. So . . . ”

02:26

Officer Fernandez-Kafati: “What’s going on?
Tell me.”

02:29

Dylan: [unclear] “Uhm. I’m just feeling . . .
weird.”

02:36

Officer Fernandez-Kafati: “Huh?”

02:36

Dylan: “A little weird, kind of.” [unclear]

02:36

Officer Bailey: [Talking to dispatcher in background.] “Need assistance on 9-1-1. Last name
‘Liberty.’ Lincoln, Ida, Bravo, Edward, Robert,
Taylor, Young. First name ‘Dylan.’ David,
Young, Lincoln, Adam, Nora. Date of birth
4-1-93.”

02:38

Officer Fernandez-Kafati: “Do you feel weird,
kind of ? Do you, do you need medical attention? We’ll get Fire to check you out. They take
your blood pressure, see if you’re all right. And
if you’re good, you’re good.”

02:48

Officer Fernandez-Kafati: “You want someone
to check you out? Did you eat something? Do
you feel terrible? What’s up?”

02:54

Dylan: “Uhm . . . ”

App. 50
03:01

Officer Fernandez-Kafati: “Keep talking.”

03:09

Officer Bailey: “Come on. Did you take something? Do you need Fire to come check you
out? Get you some water or something like
that?”

03:17

Officer Fernandez-Kafati: “We’ll get the paramedics out here, man. They’ll take a look at
you. They’ll give you some water. At least
you’ll feel better. You okay with that?”

03:24

Dylan: “Uhmm . . . ” [unclear]

03:27

Officer Fernandez-Kafati: “What?”

03:28

Dylan: “I’m going to hang out for right now.”

03:30

Officer Bailey: “What was your date of birth
again?”

03:31

Dylan: “4-1-92.”

03:33

Officer Bailey: “92. Okay. Out of Arizona?”

03:39

Dylan: “Yeah.”

03:41

Officer Bailey: [background] “12-13. It’s going
to be the year 92, not 93.”

03:44

Officer Fernandez-Kafati: “Have you . . . you
drink water today? What’s up? You’re like jittery man. Obviously something’s up. I know
you feel it. That’s why you called us. But, you
need to tell us. That way we can help you,
man. Cause, because if anything we’ll call the
paramedics over here. They’ll take a look at
you. They take your blood pressure. And if
they see that you’re all right, you’re all right,
he’s good to go and then that’s it.”

App. 51
04:05

Officer Fernandez-Kafati: “You got to remember you just can’t call 911 and walk away from
wherever you call 911. That’s the only thing.
We had to go out and look for you, man.”

04:13

Officer Bailey: “Dylan, how do you spell your
last name?”

04:16

Dylan: “Uhmm . . . Liberti, Liberti.”

04:20

Officer Bailey: ‘Liberty? How do you spell it?”

04:22

Dylan: “L-i-b-e-r-t-i.”

04:23

Officer Bailey: “r-t-i? Okay”

04:24

Dylan: “Yep.”

04:25

Officer Bailey: “Okay.”

04:30

Officer Bailey: [on radio] “12-13. Can you try
running it with the last name Liberti, with an
Ida on the end, and not a Young?”

04:35

Officer Fernandez-Kafati: “How’re you feeling,
guy? All right?”

04:37

Dylan: “Yeah.”

04:40

Officer Fernandez-Kafati: “You all right?”

04:41

Dylan: “Yeah. I was just, uhh . . . ”

04:49

Officer Fernandez-Kafati: “You were just what?”

04:55

Officer Fernandez-Kafati: “You need help, man?
You need the paramedics to check you out?
They’ll come and check you and give you some
water. Send you on your way if you’re all
right.”

App. 52
05:03

Dylan: “Uh, no. I’m just . . . I mean I’m just
feeling a little like, you know. . . . [fades].”

05:12

Officer Bailey: “Yeah. You don’t look good.
Let’s get Fire over here and just evaluate you.”

05:14

Dylan: “No. I don’t need, I don’t need Fire, I
mean. . . .”

05:17

Officer Fernandez-Kafati: “What ends up
happening, seriously, when we call them, they
show up, they ask you what’s going on, they
ask you a couple of questions, take your blood
pressure. And what have you got, man, . . .
[fades].”

05:28

Dylan: “Yeah, I don’t . . . ” [unclear]

05:29

Officer Bailey: “Where do you live at?”

05:31

Dylan: “Uh, 8197 Del Rubi Drive.”

05:36

Officer Bailey: “Okay. Is that around here?
What are you doing out, like over here? What’s
going on today?”

05:42

Dylan: “Uhmm . . . ” [Dylan moved one or two
feet to his right, more into the shade. Dylan
makes no move to run away from the officers.]

05:49

Officer Bailey: “Okay. Sit down! You’re moving
around too much for me. All right?” [Dylan is
practically motionless.]

05:51

Officer Fernandez-Kafati: “Okay. Sit down.”

05:51

Dylan: “I just wanted to walk away.” [While
saying that, Dylan is standing still with his
arms crossed in front of him.]

App. 53
05:52

Officer Bailey: “No. You’re going to sit down
now when I’m telling you to sit down. Okay?
Sit down!”

05:54

Officer Fernandez-Kafati: “Yeah. Take a seat.
Listen to her. Take a seat. Trust me. It’s better
for you. Trust me.”

05:59

Officer Bailey: “Sit down right there in the
shade.”

06:01

Officer Fernandez-Kafati: “She’s telling you,
man. You don’t want to get [fades].”

06:02

Officer Bailey: “Dylan. Sit down.”

06:04

Officer Fernandez-Kafati: “Just take a seat,
man.”

06:05

Dylan: “Okay, what?”

06:05

Officer Bailey: “Sit down, now!”

06:07

Dylan: [unclear]

06:07

Officer Bailey: “Sit down. Go on. Sit down.”
[Officer Bailey moves toward Dylan, who
flinches. Officer Bailey grabs Dylan just above
his left elbow with her right hand and then
grabs his upper left arm with her left hand.
Dylan pulls away.]

06:09

Dylan: “Hey! Hey! Why are you holding me?”
[Dylan moves away as both officers rush at
him and try to grab him.]

06:11

Dylan: “Stop! Please! Stop! Please! Please!
Please!” [Dylan screams incoherently.] “Oh,
please!” [More screaming.]

App. 54
[Confused and intermingled general shouting
and yelling.]
06:12

Officer Bailey: “Dylan! Stop! Stop it! Get on
the ground, now!”

06:22

[Dylan breaks away and runs down the sidewalk.]

06:22

Officer Fernandez-Kafati: “Get down on the
ground!”

06:23

Officer Bailey: “Stop it!”

06:23

Dylan: “Get away from me!” [Dylan is running
away. The police officers are chasing him.]

06:31

Officer Fernandez-Kafati: “Stop! Stop! Police!”
[unclear]

06:35

[By now, although Dylan has threatened no
one and is just trying to run away, both officers have almost caught up with Dylan, who is
now walking. Both officers have their service
pistols drawn, and are aiming them at Dylan.
At no point does it appear on the video that
Officer Fernandez-Kafati pulls out his Taser.]

06:37

Officer Bailey: “Stop it, right now! Stop it!”

06:39

Officer Fernandez-Kafati: [Unclear] “Get out
of your pocket! Get your hand out of your
pockets! Get on the ground! Police! Get on the
ground! Get on the ground!”

06:42

Officer Fernandez-Kafati: “Get on the ground!
Get on the ground! Get on the ground now!”

06:45

Dylan: “Please. Shoot me in the head. Please.”

App. 55
06:46

Officer Fernandez-Kafati: “Get on the ground!
Get on the ground, now! Stop using your
pockets!”

06:50

Dylan: “Shoot me in the head.”

06:51

Officer Fernandez-Kafati: “Get on the ground!”

06:53

Officer Fernandez-Kafati: “Get on the ground!”

06:54

Officer Bailey: “Get down now!”

06:55

Officer Fernandez-Kafati: “Stop using your
pocket! Let go of that knife! Let go of that
knife!”

06:57

Dylan: “Please!”

07:00

Officer Bailey: “Get down!”

07:02

Officer Fernandez-Kafati: “Let go of that knife!”

07:09

Officer Fernandez-Kafati: “Let go of that knife!”

07:11

Officer Bailey: “Get down now!”

07:19

Officer Fernandez-Kafati: “Where the fuck did
he go?”

07:24

Officer Bailey: “Hey!”

07:27

Officer Fernandez-Kafati: “[unclear] . . . Drop
the knife!”

07:29

Officer Bailey: “Get down now or I’m going to
Tase you!”

07:30

Dylan: [unclear] “The spirits catch me!”

07:32

Officer Bailey: “Get down!”

07:33

Dylan: “Please!”

App. 56
07:35

Dylan: [unclear]

07:36

Officer Bailey: “Get down!”

07:37

Officer Fernandez-Kafati: “Get on the ground!”

07:37

Dylan: “Shoot me.” [Unclear if referring to the
Taser or to a pistol.]

07:39

Officer Fernandez-Kafati: “Get on the ground!”

07:42

Officer Fernandez-Kafati: “Drop that knife!”

07:43

Officer Bailey: “Drop it!”

07:44

Officer Fernandez-Kafati: “Drop that knife,
now!”

07:46

Officer Fernandez-Kafati: “Drop that knife,
now!”

07:48

Dylan: “Shoot me, dude. . . . [unclear].” [possibly directed at Officer Bailey, who is aiming a
Taser at Dylan]

07:50

Officer Bailey: [into radio] “We’re underneath
the parking garage.”

07:52

Dylan: “Now.”

07:53

[Officer Bailey shoots Dylan with her Taser.
Dylan screams, convulses, and collapses.]

07:54

Officer Bailey: “Taser! Taser! Taser!”

07:56

Dylan: [screams incoherently]

08:01

Officer Fernandez-Kafati: “Let go of the knife!”

08:03

Dylan: “Shoot me, motherfucker!”

08:05

[Dylan staggers to his feet.]

App. 57
08:05

Dylan: “Shoot me, mother!”

08:06

[Keeping the parking garage wall close to his
right side, unsteady on his feet from the
Taser’s high-voltage shock, and not apparently looking at either police officer, Dylan
tries to run.]
[From Dylan’s perspective, Dylan seems to be
staggering to the right alongside the parkinggarage wall and Officer Fernandez-Kafati is
rapidly backing away from Dylan to Dylan’s
left.]

08:07

[Outside of Dylan’s wall-hugging line of
travel, and while backing faster and ever further away from the staggering Dylan, Officer
Fernandez-Kafati shoots Dylan twice.]

08:08

[Dylan falls on his back. He is screaming, in
shock and pain, and helpless. But the police
officers continue to order Dylan to drop the
knife. They stand back and watch him bleed
to death. They do nothing to help him until
09:56.]

08:08

Officer Bailey: “Shit!”

08:11

Officer Bailey: “Drop it!”

08:12

Officer Fernandez-Kafati: “Drop it! Drop it!”

08:15

Officer Bailey: “Drop the knife now!”

08:17

Officer Bailey: “No, no, no! No, no! Shit!”

08:19

Officer Fernandez-Kafati: “Drop the knife!”

08:21

Officer Bailey: “Drop it!”

App. 58
08:22

Officer Fernandez-Kafati: “Drop the knife!”

08:23

Officer Bailey: “Drop it!”

08:29

Officer Fernandez-Kafati: “Drop the knife!”

08:29

Officer Bailey: “Put it down!”

08:31

Officer Bailey: “Put it down!”

08:32

Officer Fernandez-Kafati: “Drop the knife!”

08:33

Officer Bailey: “Put it down!”

08:36

Officer Fernandez-Kafati: “Drop the knife!”

08:38

Officer Bailey: “Put it down so that we can
help you!”

08:53

Officer Fernandez-Kafati: “Drop the knife!”

08:54

Officer Bailey: “Drop it!”

08:55

Officer Fernandez-Kafati: “Dude, drop the knife!”

08:57

Officer Bailey: [into radio] “Could we have
Fire stage, please?”

09:01

Officer Bailey: “Drop it.”

09:06

Officer Maldonado: [unclear] “Go around. Get
me an ‘L’ that way.” [unclear]

09:15

Officer Maldonado: “What’s his name?”

09:15

Officer Fernandez-Kafati: “Dylan.”

09:15

Officer Bailey: “Dylan.”

09:16

Officer Maldonado: “Dylan, put the knife down!”

09:17

Officer Bailey: “Dylan, put the knife down.
We need to help you. Drop the knife!”

App. 59
09:18

Officer Maldonado: “Dylan! Can you hear me,
Dylan? Move your left arm.”

09:22

Officer Maldonado: “Move your left arm.”

09:27

Officer Maldonado: “Dylan!”

09:29

Officer Bailey: “Dylan, drop it.”

09:31

Officer Bailey: “He’s fading.”

09:33

Officer Maldonado: “Dylan!”

09:35

Officer Bailey: “He’s fading. Let’s step on it
[the knife]. Yeah.”

09:43

[Still holding back from Dylan, Officer Bailey
starts to put on surgical gloves.]

09:50

Officer Maldonado: “Dylan, stay with us, Bud.”

09:51

Officer Maldonado: “Pat him down. Pat him
down . . . [indistinct].”

09:52

Officer Fernandez-Kafati: “I am going to. I am
going to right now.”

09:54

Officer Maldonado: “Where else did you shoot
him? Just one shot right here?”

09:56

[Almost two full minutes after Officer FernandezKafati shot Dylan, leaving him helpless on the
ground, Officer Bailey is the first police officer
to finally touch Dylan to start rendering any
aid.]
[Video continues until 14:16.]
*

*

*

